<html>
<title> - EMERGING CONTAMINANTS IN U.S. WATERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  EMERGING CONTAMINANTS IN U.S. WATERS

=======================================================================

                               (110-171)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
45-022 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
JERRY F. COSTELLO, Illinois          WAYNE T. GILCHREST, Maryland
TIMOTHY H. BISHOP, New York          VERNON J. EHLERS, Michigan
BRIAN HIGGINS, New York              FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
JOHN T. SALAZAR, Colorado            ROBIN HAYES, North Carolina
MAZIE K. HIRONO, Hawaii              HENRY E. BROWN, Jr., South 
HEATH SHULER, North Carolina         Carolina
HARRY E. MITCHELL, Arizaon           TODD RUSSELL PLATTS, Pennsylvania
JOHN J. HALL, New York               BILL SHUSTER, Pennsylvania
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California, Vice     JOHN R. `RANDY' KUHL, Jr., New 
Chair                                York
ELEANOR HOLMES NORTON, District of   CHARLES W. BOUSTANY, Jr., 
Columbia                             Louisiana
BOB FILNER, California               JEAN SCHMIDT, Ohio
ELLEN O. TAUSCHER, California        CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    THELMA D. DRAKE, Virginia
GRACE F. NAPOLITANO, California      ROBERT E. LATTA, Ohio
MICHAEL A. ARCURI, New York          JOHN L. MICA, Florida
DONNA F. EDWARDS, Maryland             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

DeFur, Peter, Research Associate Professor, Center for 
  Environmental Studies, Virginia Commonwealth University, 
  Richmond, Virginia.............................................     6
Grumbles, Hon. Benjamin, Assistant Administrator for Water, U.S. 
  Environmental Protection Agency, Washington, D.C...............     6
Guidotti, Tee L., Chair, Department of Environmental and 
  Occupational Health, School of Public Health and Health 
  Services, The George Washington University, Washington, D.C....     6
Larsen, Matthew, Associate Director for Water, United States 
  Geological Survey, Reston, Virginia, accompanied by Herb 
  Buxton, Program Coordinator, Toxics Program, United States 
  Geological Survey, West Trenton, New Jersey....................     6
Linn, Keith, Environmental Specialist, Northeast Ohio Regional 
  Sewer District, Cleveland, Ohio, testifying on behalf of the 
  National Association of Clean Water Agencies...................     6
Littell, David, Commissioner, Maine Department of Environmental 
  Protection, Chair, Cross Media Committee, Environmental Council 
  of the States, Augusta, Maine..................................     6
McCarthy, Hon. Carolyn, a Representative in Congress from the 
  State of New York..............................................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    30
Costello, Hon. Jerry F., of Illinois.............................    31
Johnson, Hon. Eddie Bernice, of Texas............................    33
McCarthy, Hon. Carolyn, of New York..............................    37
Mitchell, Hon. Harry E., of Arizona..............................    42
Oberstar, Hon. James L., of Minnesota............................    44

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

DeFur, Peter.....................................................    48
Grumbles, Hon. Benjamin..........................................    55
Guidotti, Tee L..................................................    67
Larsen, Matthew..................................................    85
Linn, Keith......................................................    96
Littell, David...................................................   102

                  STATEMENTS SUBMITTED FOR THE RECORD

Larsen, Matthew, Associate Director for Water, United States 
  Geological Survey, Reston, Virginia, response for request for 
  information from Rep. Napolitano...............................    94

[GRAPHIC] [TIFF OMITTED] T5022.001

[GRAPHIC] [TIFF OMITTED] T5022.002

[GRAPHIC] [TIFF OMITTED] T5022.003

[GRAPHIC] [TIFF OMITTED] T5022.004

[GRAPHIC] [TIFF OMITTED] T5022.005

[GRAPHIC] [TIFF OMITTED] T5022.006

[GRAPHIC] [TIFF OMITTED] T5022.007



            HEARING ON EMERGING CONTAMINANTS IN U.S. WATERS

                              ----------                              


                     Thursday, September 18, 2008,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. I would like to call the Subcommittee to 
order. This afternoon, we will be holding a hearing on emerging 
contaminants in U.S. waters, and we will try to move 
expeditiously for those who are operating under time 
constraints.
    Today's hearing looks at the extensive range of emerging 
contaminants that are present in our surface waters. Many of 
these substances are either unregulated or under-regulated and 
include toxic chemicals, pesticides, pharmaceuticals, and nano-
materials.
    As many of you know, I spent my early years as a nurse--and 
we have a nurse facing us out there--and it is from that 
experience that I have been very mindful of threats, especially 
unnecessary threats, to human health.
    However, I am concerned with the growing body of evidence 
on the presence of toxic chemicals and their byproducts in the 
Nation's waters and question just how safe our waters actually 
are, especially to human health over the long term.
    While the Clean Water Act was successful in controlling 
some substances, it is clear that today's contaminants of 
concern are not the pollutants of yesteryear. For example, 
there are currently 80,000 chemicals in use. This is a three-
fold increase from 1941 to 1995. Eight thousand of these are 
known to be carcinogenics.
    One would hope that all of these 8,000 cancer-causing 
poisons are somehow addressed under Federal and State 
authorities, including the Clean Water Act. Shockingly, this is 
not the case. It seems that less than 300 chemicals have permit 
limits. Today's hearing provides us the opportunity to ask why 
this is the case.
    It is not as if emerging contaminants are new issues of 
concern for either the Congress or the EPA. In 1996, through 
the Food Quality Protection and Safe Drinking Water Acts, the 
Congress instructed EPA to develop a screening program to 
determine if certain chemicals and compounds disrupt hormones 
in humans. In the 12 years since this mandate was put forward, 
the Agency has not begun to test any chemicals under this 
program, despite the potential for these chemicals and 
compounds to cause great harms to individuals, especially to 
children and pregnant women
    Testimony from the U.S. Geological Survey will demonstrate 
that these endocrine disrupting chemicals, and many other toxic 
substances, are in our surface waters. Not only have they been 
demonstrated to harm aquatic life, they have the grave 
potential to harm humans.
    I look forward to hearing from our witnesses today about 
how these chemicals, these emerging contaminants, are getting 
into our waters.
    Our former Defense Secretary, Don Rumsfeld, famously 
stated: ``There are known knowns. There are known unknowns. But 
there are also unknown unknowns.''
    While perhaps it is a clever quip, we certainly saw how a 
reliance on such platitudes rendered our situation in Iraq 
during his tenure. We would certainly hope that our Nation's 
Environmental Protection Agency is not taking the same approach 
with regards to unregulated toxic chemicals.
    Frankly, when it comes to the health of the very young, to 
pregnant woman, and to the elderly, there is no excuse for not 
knowing.
    I look forward to the testimony from our witnesses today on 
this very important hearing. I now yield to the Subcommittee's 
Ranking Member, Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. First of all, I want 
to congratulate you and Dr. Ehlers and the staff for the 
passage yesterday of the Great Lakes Legacy Act. That is 
something that I think that the Subcommittee can be very, very 
proud of, and we appreciate your leadership.
    Today, the Subcommittee begins to explore a new and 
important topic: micro pollutants in U.S. waters, sometimes 
referred to as contaminants of emerging concern.
    With the advent of better detection equipment, we are 
discovering a number of chemicals in our water that previously 
we have not considered. These substances may be naturally 
occurring or they may be manmade. Of those that are manmade, 
many are associated with human, industrial, and agricultural 
waste, including antibiotics, other prescription drugs, 
steroids, reproductive hormones, personal care products, 
products of oil use and combustion, pesticides, fire 
retardants, solvents, and the list goes on and on.
    These chemicals have been found in surface water downstream 
of urban center and livestock production areas. Many of these 
compounds seem to survive wastewater treatment. Some of these 
substances have also been found in the untreated drinking water 
sources for several U.S. cities. Where they are found, the 
concentrations of these chemicals so far has been relatively 
low and being compared to finding a drop of pollution in an 
Olympic-size swimming pool. Such low concentrations may not 
have any adverse human health effects, but we do not know how 
long these concentrations will remain low.
    We know that current drinking water and wastewater 
treatment processes are not designed to remove many of these 
substances, including pharmaceuticals. We know that at high 
concentrations, many of these contaminants have an adverse 
effect on the environment and on human health. We know very 
little about the chronic effect of low doses over extended 
periods of time.
    While there is a lot we do not know about the potential 
effects these substances might be having, we do know for 
certain that proper use of pharmaceuticals and industrial 
chemicals have enriched the quality of our lives and our 
Nation's economy. These are benefits that we certainly want to 
preserve. It would appear to me that there is a lot we do not 
know about the presence of these substances and to what degree 
they are actually a threat to human health and the environment. 
We certainly need to know a lot more before we decide on any 
regulatory course of action.
    I hope to learn more from the hearing today from this panel 
of expert witnesses. Hopefully, they can help us understand 
what is already known and what we still need to know about 
contaminants of emerging concerns in U.S. waters.
    I yield back, Madam Chair.
    Ms. Johnson. Thank you very much.
    We will ask all Members to file their statements and they 
will be a part of the permanent record. We will go directly to 
our witnesses, since we are starting late.
    I am pleased to have a distinguished Member of the House 
testifying on our first panel, Congresswoman Carolyn McCarthy, 
from the State of New York.
    Your full statement will be placed into the record, and if 
you can keep your comments to five minutes, we would appreciate 
it. And consistent with the Subcommittee practice, Members will 
not receive questions following the testimony, but, if we have 
some, we will contact you later. You may proceed.

 TESTIMONY OF THE HONORABLE CAROLYN MCCARTHY, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Ms. McCarthy. Thank you, Chairwoman Eddie Bernice Johnson, 
and I want to thank Ranking Member John Boozman and Members of 
the Committee for holding this hearing and inviting me to 
testify.
    I commend the Chairwoman for all your hard work to keep our 
Nation's waters clean; not just by holding this hearing, but 
also moving the Water Resources Development Act and Beach 
Protection Act, important legislation to ensure that our 
beaches are safe for swimming, which the House took up before 
we entered the summer beach season.
    I appreciate the opportunity to testify before you 
specifically about pharmaceuticals in our Nation's waters.
    As you know, when the House took up H.R. 2357, the Beach 
Protection Act of 2007, I offered and withdrew an amendment to 
the bill. We engaged in a colloquy about pharmaceutical 
products in our Nation's waters. I asked that hearings be held, 
and we agreed to work together on legislation to address this 
issue. That brings us here today, and I commend the Committee 
for acknowledging that we must begin to understand this 
important issue so that our constituents can feel confident 
when they are drinking clean, safe water.
    An Associated Press study from March brought to light the 
fact that pharmaceuticals have been found in the drinking water 
supply of at least 41 million Americans. Last week, the AP did 
a follow-up study that found that even more Americans were 
affected by the contaminated water, approximately 46 million.
    In my State of New York, health officials found heart 
medicine, infection fighters, estrogen, mood stabilizers, and a 
tranquilizer in the upstate water supply. Six pharmaceuticals 
were found in the drinking water right here in Washington, D.C. 
We don't know how the pharmaceuticals enter the water supply, 
but it is likely that some medications that are not fully 
absorbed by the body may have passed into the water through 
human waste. In some other cases, unused pills may have simply 
been flushed down in the toilet. Additionally, some 
agricultural products and medications may have run off into the 
groundwater supplies.
    In addition to antibiotics and steroids, EPA has identified 
over 100 individual pharmaceutical and personal care products 
in environmental samples and in drinking water. Wastewater 
treatment plants appear to be unable to completely remove 
pharmaceutical products from the water. The presence of the 
pharmaceuticals in our Nation's waters raise serious questions 
about the effects on humans and on wildlife.
    I, along with my colleagues Representative Tammy Baldwin of 
Wisconsin and Allyson Schwartz of Pennsylvania, have introduced 
legislation that would require the EPA to conduct a study on 
the presence and source of pharmaceuticals and personal care 
products in our Nation's water.
    Pharmaceuticals and personal care products include 
prescription and over-the-counter therapeutic drugs, 
veterinarian drugs, fragrances, lotions, and cosmetics, as well 
as products used to enhance growth of health of livestock.
    H.R. 6820, the Water Assessment and Treatment Evaluation 
Research Study Act of 2008, or the WATER Study Act, includes a 
three-part report to be carried out by EPA working with other 
relevant Federal agencies. An initial report, due in one year 
after the bill is passed, calls for an analysis of what 
pharmaceuticals and personal care products are in the water, 
where they come from, and how we can regularly monitor for 
them.
    An interim report due in three years looks at the effects 
the products have on human and animal health, as well as 
methods to remove the products from our drinking water supply. 
A final report asks for an analysis of the long-term effects on 
human exposure to pharmaceutical products in our waters and the 
levels at which the products in our waters become harmful.
    The report is broken into three pieces because many 
interested groups explained the difficulty in completing a 
report from all the elements too soon, but some items we can 
know pretty quickly and can begin to respond to them in a 
better matter. Furthermore, initial results will prompt 
responses from the scientific community, which can also help 
form the basis of the items to be studied in the future 
reports.
    The final report asks for an update on all the findings 
from the initial and the second reports. The report will be 
used as part of the Government's efforts to better understand 
the effects pharmaceuticals in our waters have on human health 
and aquatic wildlife.
    I want to stress that my legislation is not intended to 
make any presumptions or accusations, or even say that a 
problem does exist. We are just looking for more information so 
we can make better informed choices and eventually move towards 
more sensible policies. Hopefully, the study will give us more 
information about the presence, source, and effects of the 
products that are in the water so we can begin efforts to 
ensure that the water is safe.
    We need to find out how these contaminants got in the 
water, what the risks are, and what steps we need to take to 
solve the problem. We need to know how are the pharmaceuticals 
entering the water supply? How much is in the water? What else 
is in the water that we do not know about yet? What are the 
effects on human health and plant life? What is the best way to 
dispose of pharmaceuticals? And how should we great water that 
has been contaminated with these products?
    How is existing Federal legislation, such as the Clean 
Water Act and Safe Drinking Water, sufficient to address the 
new products that we are finding?
    It is vital that Congress take up and champion the cause of 
keeping our coastal recreation and drinking water safe. This is 
a public health issue and we must act before the presence of 
pharmaceutical products reaches a crisis level. This study is a 
first and very important step in the process of addressing this 
issue. We need to accurately assess the risks of these 
contaminants in the water because some experts have suggested 
that the problem will only increase. We have seen a 12 percent 
rise over the last five years alone.
    I know that my bill, H.R. 6820, has been referred to the 
Energy and Commerce Committee because it focuses so much on 
addressing safe drinking water in specific, but I do recognize 
that this Committee handles the Clean Water Act, so it is 
important that we look at all of our Nation's waters as well, 
including source water, to see where the problem begins. We 
can't fully address safe drinking water without looking at the 
whole entire water system.
    I look forward to working with all of you, including the 
EPA, the water treatment companies, the drug companies, 
agricultural interests, and others to combat this issue. Before 
dropping the bill, we reached out to many different parties and 
will continue to talk. I know that we can come to an agreement 
on this issue, including efforts to educate people about safe 
disposal of medication.
    Just on a side, as all of us, you know, we go to the 
doctor, we get a prescription drug and we find, after a day or 
two, that we can't take that drug--maybe we have a reaction to 
it--and you have 40 pills. I asked the doctor, what can I do 
with the pills. He didn't know. So they are still sitting in my 
medicine cabinet because I don't want to dispose of them any 
more because I am afraid they will get into our water system.
    Madam Chairwoman, I again commend the Committee for holding 
this very important hearing, would be happy to answer any 
questions, and look forward to working with you and the 
Committee as we go forward. Thank you very much.
    Ms. Johnson. Thank you very much. We will not have 
questions for you. Thank you very much for coming.
    Our second panel of witnesses consists of EPA's Assistant 
Administrator of Water, Mr. Benjamin Grumbles; Dr. Matthew 
Larsen of USGS. Dr. Larsen is the Assistant Director for Water 
at the USGS and is accompanied today by Mr. Herb Buxton, the 
Program Coordinator of the Toxics Program at USGS; Mr. David 
Littell from the State of Maine's Department of Environmental 
Protection. I am going to ask him to start testimony first 
because he has to leave.
    Following him will be Mr. Keith Linn, Environmental 
Specialist of the Northeast Ohio Environmental Sewer District, 
and Mr. Linn will be testifying on behalf of the National 
Association of Clean Water Agencies. We will then hear from Dr. 
Tee Guidotti, Chair of the Department of Environmental and 
Occupational Health at the George Washington University. Our 
final witness on the second panel is Mr. Peter deFur, Research 
Associate Professor from the Center of Environmental Studies at 
the Virginia Commonwealth University.
    Your full statements will be placed in the record, and we 
ask that you try to limit your testimony to five minutes as a 
courtesy of the other witnesses. Again, we will proceed with 
Mr. Littell.

 TESTIMONY OF DAVID LITTELL, COMMISSIONER, MAINE DEPARTMENT OF 
    ENVIRONMENTAL PROTECTION, CHAIR, CROSS MEDIA COMMITTEE, 
   ENVIRONMENTAL COUNCIL OF THE STATES, AUGUSTA, MAINE; THE 
HONORABLE BENJAMIN GRUMBLES, ASSISTANT ADMINISTRATOR FOR WATER, 
U.S. ENVIRONMENTAL PROTECTION AGENCY, WASHINGTON, D.C.; MATTHEW 
LARSEN, ASSOCIATE DIRECTOR FOR WATER, UNITED STATES GEOLOGICAL 
 SURVEY, RESTON, VIRGINIA, ACCOMPANIED BY HERB BUXTON, PROGRAM 
 COORDINATOR, TOXICS PROGRAM, UNITED STATES GEOLOGICAL SURVEY, 
WEST TRENTON, NEW JERSEY; KEITH LINN, ENVIRONMENTAL SPECIALIST, 
   NORTHEAST OHIO REGIONAL SEWER DISTRICT, CLEVELAND, OHIO, 
TESTIFYING ON BEHALF OF THE NATIONAL ASSOCIATION OF CLEAN WATER 
 AGENCIES; TEE L. GUIDOTTI, CHAIR, DEPARTMENT OF ENVIRONMENTAL 
  AND OCCUPATIONAL HEALTH, SCHOOL OF PUBLIC HEALTH AND HEALTH 
 SERVICES, THE GEORGE WASHINGTON UNIVERSITY, WASHINGTON, D.C.; 
   AND PETER DEFUR, RESEARCH ASSOCIATE PROFESSOR, CENTER FOR 
   ENVIRONMENTAL STUDIES, VIRGINIA COMMONWEALTH UNIVERSITY, 
                       RICHMOND, VIRGINIA

    Mr. Littell. Good afternoon, Chairwoman Johnson, Ranking 
Member Boozman, Members of the Committee. Thank you for 
accommodating my schedule. I am David Littell, Commissioner of 
the Maine Department of Environmental Protection. Thank you for 
inviting me here to testify on Maine's experience with emerging 
contaminants.
    As a representative of the States, I hope to leave you 
today considering three issues. One is that the States simply 
do not have sufficient information nor resources to fully 
understand the human or environmental impacts of emerging 
contaminants in the waste streams, our waters, or our 
ecosystems. Two, there are certain characteristics of some 
substances that suggest a need for caution. Those substances 
are particularly carcinogens, reproductive and developmental 
toxics, endocrine disruptors, persistent and very persistent 
substances and biocumulative and very bioaccumulative 
substances. Third, the States have established, in some cases, 
common sense and very practical innovative approaches to 
dealing with some of these issues outside the regular 
regulatory construct, and we will commend some of those 
approaches to the Federal level as well.
    Maine's scientific and regulatory community has been 
looking at what we are calling emerging contaminants for well 
over a decade now. In 1995, Dr. Beverly Paigen, a scientist at 
Maine's internationally renowned Jackson Laboratory, discussed 
endocrine-disrupting chemicals in a technical paper prepared 
for the Maine Environmental Priorities Project.
    In that paper she noted concerns regarding biological, 
human, and wildlife impacts, including increased incidents of 
certain cancers, particularly reproductive impacts including 
human reproductive impacts, and congenital abnormalities, among 
other factors. As a result of that paper, Maine joined with 
USGS and the EPA to conduct limited sampling in Maine that 
supplemented the national sampling to determine to what extent 
some of these emerging contaminants of concern were in our 
waters.
    In 2002, Maine submitted samples to U.S. EPA Region I for 
wastewater effluents and associated receiving water discharges 
in eight locations in Maine. These were scanned for only six 
emerging contaminants. In the majority of these samples, 
detectable amounts of certain contaminants were found in the 
majority of the samples, particularly, bisphenol-A was 
detected, triclocarban, which is an antibacterial agent in 
soaps, and detectable amounts of an emulsifier used in 
detergents and pesticides were found. In addition, in the 
majority of samples, one or more estrogen-like compounds were 
detected.
    In 2005, Maine also dedicated a portion of our limited 
funding to study the presence of estrogenic compounds in the 
effluent of three publicly owned treatment plants on the 
Penobscot River. In each of these discharges from our public 
sewer treatment plants, effluent was determined to be 
estrogenic when it was discharged to the Penobscot River.
    What is the significance of these limited efforts today? 
Well, the significance is, although the data is sparse, we have 
clearly determined that wastewater discharges in receiving 
water bodies have levels of some emerging contaminants which 
could impact at a biological level aquatic life. That is a 
significant concern.
    Furthermore, we do not know what the cumulative effect is 
of multiple contaminants such as endocrine disruptors which are 
discharged to water bodies.
    In addition, impacted populations can be difficult to 
predict, and let me use a particular example from Maine to 
illustrate that. Maine has been studying the impact of mercury 
in our ecosystems since at least 1980, significantly. The 
conventional wisdom until very recently was that mercury issues 
were primarily aquatic ecosystem issues, the belief being that 
mercury was deposited in rainwater, as well as snow, into our 
aquatic ecosystems and worked its way up the food chain, 
ultimately ending up at the top end predator species--eagles, 
loons, and, of course, humans.
    Very recently, the BioDiversity Institute in Maine 
conducted extensive samples of 23 different bird species--ocean 
species, coastal wetland species, upland species, and inland 
wetland species. What they found is that certain species that 
have no direct contact with the aquatic ecosystem had mercury 
levels that were much higher than were expected. So we now know 
that we have a terrestrial ecosystem problem with mercury, 
where we don't entirely understand the mechanism of fate and 
transport and how the mercury is getting into the birds, but we 
clearly have an issue that until very recently we didn't 
realize we had in our terrestrial ecosystem.
    In addition, persistence, fate, and transport can be hard 
to predict, and by way of example of that I would offer the DDT 
example. Maine banned DDT four decades ago, and the United 
States followed in 1972. Despite that, we still have three 
river systems in Northern Maine that are under fishing 
advisories for DDT, and, of course, the situation is more 
significant nationally.
    In short, there is a lot that we don't know when gaging the 
significance of the release of many of these potential emerging 
contaminants into our ecosystems.
    What we do know is that there is an ongoing need for 
additional research needs to determine the environmental and 
human health impacts of these contaminants when they are 
released into the environment, also, to determine the human 
health toxicology and the eco-toxicology of these contaminants. 
Along the way, we have observed, as Ranking Member Boozman said 
in his opening statement, that wastewater treatment plants do 
not do a good job of treating for many of these contaminants. 
They are not designed to do so and, in many cases, they simply 
do not do so.
    However, there are other alternatives besides the 
traditional Clean Water Act approaches to controlling some of 
these contaminants. At the State level, we and other States 
have pioneered product stewardship initiatives, and 
particularly in the area of pharmaceuticals, in 2003, Maine was 
the first State to pass legislation authorizing a mail-in 
rebate program for unused pharmaceuticals.
    Since then, many entities have worked on the details of 
working that out because, as you might imagine, with 
pharmaceuticals they are a little bit different, some of them 
are controlled substances, so the drug enforcement authorities 
had particular concerns with how the program was designed and 
my own agency had concern because some of them qualified as 
hazardous waste, so they had to be dealt with a little bit 
differently than some other product stewardship initiatives.
    Nonetheless, we have successfully ironed out all the 
details and, in 2007, the U.S. EPA awarded a $150,000 grant to 
the University of Maine's Center for Aging, which launched a 
statewide mail-in rebate program. We expect that rebate program 
to remove 3,000 pounds of unused pharmaceuticals from our waste 
streams in Maine. Those 3,000 pounds of pharmaceuticals will 
not go into our water of the United States or water of the 
State of Maine, which is our groundwater.
    Maine's experience can be replicated and expanded 
nationally. In May of 2008, the international pharmaceutical 
company Roche publicized financial incentives to ensure that 
unused and outdated products are returned by retailers and 
others in the supply chain. Roche participates in 
pharmaceutical take-back programs in the EU and encourages 
those types of programs in the United States, but more could be 
done to work on those types of programs.
    While the overall structure of the Clean Water Act does not 
inhibit our work in this area and it is possible to use the 
traditional water quality criteria for individual toxics under 
the Clean Water Act, it is probably more effective to institute 
product stewardship initiatives to prevent these contaminants 
from entering the waste stream in the first place.
    In addition, I would respectfully submit that revisions to 
the Toxic Substance and Control Act would help ensure that the 
toxicity of the human health toxicity, as well as ecological 
toxicity, is better defined for existing chemicals that are in 
commerce and new chemicals before they are introduced in 
commerce.
    With that, I am happy to answer any questions the Committee 
might have, and, again, thank you for asking us to testify 
today.
    Ms. Johnson. Thank you very much. We will ask the Committee 
Members to submit questions to you later, since it is just 
about time for you to walk out.
    Mr. Littell. Thank you, Congresswoman.
    Ms. Johnson. Thank you.
    We will now go back to our regular order and ask Mr. 
Grumbles to start his testimony.
    Mr. Grumbles. Thank you, Madam Chair and Congressman 
Boozman. It is always an honor to appear before the Committee. 
I just want to say, if this does end up being one of the last 
times to appear before the Committee, what an honor it has been 
to work with you all. You identify the right issues, the key 
concerns, and that is what today is all about. EPA is concerned 
about pharmaceuticals and personal care products in water, but 
we are also concerned that utilities and communities not divert 
their resources and efforts away from higher priorities and 
risks.
    Therefore, EPA has developed a comprehensive four-pronged 
approach to deal with this emerging concern of different types 
of contaminants that are not currently regulated, particularly 
pharmaceuticals and various personal care products. The first 
prong, one of the most fundamental, is to strengthen the 
science. We all know, and I am sure that this panel will 
understand that there is a lot for us to learn. We need to help 
close the gap between what we know what we don't know and what 
we need to know.
    The Agency is carrying out extensive studies and surveys at 
a national level and at a regional level to help close gaps in 
that first prong. I just want to mention a few of them. One of 
them is that we are conducting a study at nine sewage treatment 
plants to better understand what is going into the plant for 
treatment and what is coming out of the discharge. We have also 
conducted a pilot study on fish tissue looking for the presence 
of pharmaceuticals and other personal care products in fish 
tissue in five effluent-dominated streams across the U.S.
    Madam Chair, we are also conducting a national survey of 
sewage sludge from 74 randomly-selected wastewater treatment 
plants to determine whether contaminants occur in biosolids 
and, if so, at what concentrations. We have also carried out 
and will continue to issue grants to various organizations and 
work with research foundations and universities, including the 
University of Florida and Duke University. We are working with 
them and providing funding to help get answers to questions 
involving different types of contaminants of emerging concern.
    Madam Chair, we are also conducting something that is 
extremely important to the Agency, and that is to build upon 
the fish tissue studies that we have currently conducted. That 
is why we are expanding the scope of our surveys under the 
National Rivers and Streams Assessment to monitor for fish 
tissue and water samples at 154 developed and urban sites so 
that we can have a statistically representative estimate of the 
occurrence of pharmaceuticals and personal care products in 
fish tissue.
    We are also working, Madam Chair, with the National 
Research Council of the National Academy of Sciences. A 
critical question all of us are asking is to what extent does 
this present a risk to human health. So EPA will be working 
with the National Academy of Sciences and convening a workshop 
in December to help us all answer some of those fundamental 
questions about potential risks to human health.
    I would just reiterate to the Members and to the public 
that, so far, we do not have much evidence or information that 
there is a risk to human health. But I also would underscore 
that U.S. EPA is very concerned about potential impacts, 
impacts that we, USGS, and others have seen on aquatic life.
    Madam Chair, the second prong, in addition to strengthening 
the science, is to improve the public understanding and risk 
communication. We have established a Web site to provide 
information on the work that we are doing and to help 
utilities, health professionals, and the general public better 
understand and to put into proper context the nature of this 
risk, and we will continue to reach out to all our stakeholders 
and partners at the State level, at the local level, and in the 
private sector to underscore the importance of this issue and 
to improve upon risk communication.
    The third prong that we are focused on at U.S. EPA at a 
national level is identifying partnership and stewardship 
opportunities. We know that, as we wait for more information to 
come in for a verdict to be rendered from the scientific jury, 
we know that actions should be taken now. One of the key steps 
is to do more in terms of product stewardship. I am calling 
upon the pharmaceutical industry to do more to focus more on 
product stewardship. I think all of us can do more in the 
spirit of pollution prevention.
    The EPA, the Office of National Drug Control Policy, and 
the Department of Health and Human Services has issued 
guidelines to help the public better understand that the toilet 
should not be treated as a trash can. We also recognize that 
there are lists of certain pharmaceuticals that may currently 
be labeled to be flushed down the toilet. We are working with 
various agencies to revise that list, but pollution prevention 
and stewardship are key.
    One of the most important things all of us can be doing, 
including this Committee, is to get out the word to the public 
that take-back programs and voluntary collection campaigns can 
be critically important and a good way to protect the waterways 
as we gather more scientific information.
    Mr. Chairman, the fourth prong, a critically important one, 
is using regulatory tools. We know, at EPA, that regulations 
are needed, in addition to stewardship and partnership 
programs. I want to mention very quickly that there are several 
extremely important regulatory efforts underway that could lead 
to potential regulations under the Clean Water Act.
    One of them is under our effluent guidelines program, which 
involves conducting a comprehensive survey, gathering 
information on disposal practices for the health services 
industry--hospitals, nursing homes, veterinary clinics. EPA is 
watching the health services industry. We are going to work 
with them. We want all of them to work together to move the 
ball forward for more effective and appropriate disposal of 
unused pharmaceuticals and personal care products.
    We are also working to revise aquatic life criteria_a 
technical term under the Clean Water Act_which is also 
critically important. It means developing assessment 
methodologies so that we can do a more advanced job of 
translating endocrine disruption, gender-bending effects on 
aquatic life, and translate that into the standards program 
under the Clean Water Act. A third area is the Contaminant 
Candidate Listing process under the Safe Drinking Water Act. We 
are looking very closely at potential pharmaceuticals and 
personal care products being added to the lists of potential 
contaminants that would, in the future, be subject to maximum 
contaminant levels.
    The bottom line, Mr. Chairman, is that the U.S. EPA is 
taking this matter very seriously. We are using a four-pronged 
approach. We know that we need to work with USGS and other 
Federal partners. We need to work with all of the governmental 
and non-governmental organizations to move forward and address 
these emerging contaminants in the most responsible and 
effective way possible, and I look forward to answering any 
questions the colleagues of the Committee may have. Thank you.
    Mr. Taylor. [Presiding] Thank you very much, Dr. Grumbles.
    We are now joined by Dr. Matthew Larsen of the USGS. Dr. 
Larsen is the Associate Director for Water at USGS. He is 
accompanied today by Mr. Herb Buxton, the Program Coordinator 
of the Toxics Program at USGS. Dr. Larsen is recognized for 
five minutes.
    Mr. Larsen. Thank you, Congressman Taylor and Congressman 
Boozman and Members of the Subcommittee for the opportunity to 
provide the views of the U.S. Geological Survey Department of 
Interior on emerging contaminants in the environment.
    The observed presence of emerging contaminants in the 
environment has prompted public interest regarding potential 
adverse ecological effects and potential contamination of 
drinking water. Public awareness of the ways we handle and 
dispose of chemicals has increased. Industries are pursuing 
improved waste treatment technologies and management practices 
that are effective at removing these trace organic chemicals 
from surface and groundwater and waste products.
    The USGS studies a wide range of chemicals referred to as 
emerging contaminants. These chemicals include human and 
veterinary pharmaceuticals, detergents, fragrances, fire 
retardants, disinfectants, plastics, and insect repellents. The 
chemicals of greatest interest include those that enter the 
environment via human and animal waste.
    Many of these chemicals are a new focus for environmental 
research because they are used in relatively small quantities 
and were therefore not expected to be of significant 
environmental concern. They have been detected increasingly in 
the environment at very low levels. Despite these low levels, 
investigation is needed to determine if there are potential 
adverse environmental and human health effects.
    Although detection is an important component of the 
environmental assessment, ecological and human health 
assessments of the levels and mixtures observed in the 
environment are also essential. Research and monitoring by the 
USGS and others have demonstrated that many trace organic 
chemicals associated with human and animal waste have been 
entering the environment for as long as we have used them. The 
manner in which we handle and dispose of our waste can 
concentrate these chemicals in some environmental settings to 
levels that may be an ecological health concern.
    In 1998, the USGS initiated research on emerging 
contaminants. By 2002, a USGS study had documented the presence 
of these chemicals in the Nation's streams and largely defined 
this issue in the United States. Since 2002, the USGS has 
published more than 160 reports--some of which I have here--
that document the occurrence, concentration, and mixtures of 
these chemicals in various environmental settings, including 
stream and well water, stream sediments, and soil amended with 
manure and biosolids. These reports also demonstrate the 
comparative contributions from various sources, including 
wastewater treatment plants, livestock production and animal 
feedstock waste, aquaculture, septic systems, combined sewer 
overflows, and industrial discharges.
    The USGS continues to conduct research on emerging 
contaminants in the environment. Our research priorities 
include assessing chemical loads from various sources, 
including industrial facilities, as well as the occurrence of 
emerging contaminants in waters that are the source of drinking 
water. Other research priorities include ecological effects 
such as fish endocrine disruption in streams enriched with 
wastewaters and the comparative performance of various water 
and waste treatment processes to remove emerging contaminants.
    The USGS conducts this research with a number of partner 
Federal agencies, including the EPA, Centers for Disease 
Control and Prevention, Fish and Wildlife Service, and the 
National Oceanic and Atmospheric Administration. The USGS, EPA, 
and FDA co-chair the Federal Interagency Work Group on 
Pharmaceuticals in the Environment and the USGS participates in 
the Endocrine Disruption Work Group, both under the auspices of 
the Committee on Environment and Natural Resources of the 
National Science and Technology Council. These work groups have 
further increased coordination of Federal research.
    Thousands of potential emerging contaminants are used in 
our homes and places of work to improve our health and quality 
of life. USGS focuses research on those chemicals that are 
likely to be of environmental concern. Investigations of 
adverse health effects must consider the actual levels and 
mixtures of chemicals that organisms are exposed to in the 
environment. The results of USGS studies of environmental 
occurrence are used by many scientists to guide human and 
ecological health effect studies to assure that actual 
environmental conditions are being tested.
    Thank you, Mr. Chair and the Subcommittee, for the 
opportunity to present this testimony.
    Mr. Taylor. Thank you, Doctor.
    Our next speaker will be Mr. Keith Linn, Environmental 
Specialist with the Northeast Ohio Environmental Sewer 
District. Mr. Linn will be testifying on behalf of the National 
Association of Clean Water Agencies.
    Mr. Linn, you are recognized for five minutes.
    Mr. Linn. Congressman Taylor, Ranking Member Boozman, and 
Members of the Subcommittee, thank you for the opportunity to 
provide testimony on the emerging contaminants making their way 
into the Nation's waters. My name is Keith Linn, and I am an 
environmental specialist for the Northeast Ohio Regional Sewer 
District in Cleveland, Ohio. I am testifying on behalf of 
NACWA, which represents the interests of municipal wastewater 
agencies nationwide.
    The purpose of this testimony is to provide the 
Subcommittee with a sense of the state of science on emerging 
contaminants and the major data gaps that still exist, to 
explain the increasing public and media attention this issue is 
receiving, and to explain that sound science, not fear, must be 
applied to this issue about which we still have so much to 
understand.
    These compounds are often described as emerging 
contaminants, despite the fact that many have been in the 
environment for a long time, ever since society began producing 
and using them. However, human use of the products containing 
them is expanding, meaning that more of these products are 
ending up in the environment.
    While households and individuals represent a huge non-
regulated source of these products, other significant sources 
include manufacturing, retailers, hospitals, veterinary 
operations, landfills, and meat processors, just to name a few. 
However, no one has been able to confidently rank the relative 
contribution from each of these categories or their relative 
risks to human health in the environment.
    Increasingly sophisticated technology is revealing the 
presence of chemical compounds at lower and lower trace levels, 
down to nanograms per liter concentrations. A person would have 
to drink two Olympic-size swimming pools of untreated water 
from Cleveland's Cuyahoga River daily to ingest as much as a 
single therapeutic dose of an antibiotic detected in the river. 
Stated another way, these concentrations are so small that they 
are roughly equivalent to one second in the last 10,000 years, 
that is, a single second in the time from the earth's last ice 
age until now.
    Yet, presence alone is fostering awareness of and anxiety 
about emerging contaminants. The Associated Press released 
several stories earlier this year that focused on trace amounts 
of pharmaceuticals and other compounds in the drinking water of 
24 cities. The question is whether trace concentrations of 
these emerging contaminants in the Nation's waters have a 
negative environmental or human health impact, and what the 
respective roles should be for manufacturers, retailers, users, 
and wastewater and drinking water utilities.
    However, identifying which emerging contaminants are of the 
greatest concern is exceedingly difficult, as many of these 
compounds are designed to have effects at low concentrations. 
Additionally, there is little or no data on the ecological 
toxicity of most of these compounds, and performing chemical 
analyses on all of them would be prohibitively expensive. We 
need to recognize that we can never have enough data to prove 
the absolute safety of contaminants, as it is impossible to 
prove a negative.
    Nonetheless, when people read or hear reports of possible 
effects in fish, they often become concerned about similar 
effects occurring in humans. This issue could be significant 
for wastewater utilities if regulations and subsequent 
technology standards arise out of a public perception that a 
problem exists.
    The Northeast Ohio Regional Sewer District is actively 
involved nationally through membership on the NACWA Emerging 
Contaminants Work Group and on the Water Environment Research 
Foundation's Trace Organics Issue Area Team. Locally, the Sewer 
District has spearheaded the creation of a multi-agency used 
medication work group. This local work group has developed an 
outreach campaign to educate the public on proper medication 
disposal methods and it seeks to establish a regular and legal 
medication collection initiative.
    NACWA has been involved in efforts to remove from commerce 
potentially harmful products that add little or no practical 
value, such as soaps and detergents containing triclosan. NACWA 
has also participated in discussions with EPA on permethrin-
impregnated clothing and copper and silver biocides that may 
create problems for aquatic life. The Association has 
established a partnership with the Product Stewardship 
Institute to develop a comprehensive approach for managing the 
disposal of unused pharmaceuticals and personal care products, 
and many of NACWA's member agencies have established 
pharmaceutical take-back programs to keep these compounds out 
of the environment altogether.
    However, product stewardship initiatives such as drug take-
back programs face numerous barriers, including Federal 
narcotics laws and guidelines that continue to advise certain 
prescription drugs be flushed into the sewer system. At the 
same time, EPA and other regulatory agencies may ultimately 
require utilities to remove these same drugs from their 
wastewater effluent. Clearly, preventing illicit drug use must 
be of a priority, but NACWA feels strongly that there are 
better ways of managing prescription drugs without resorting to 
disposal in the sewer system.
    In addition, NACWA strongly encourages Congress to address 
other emerging contaminants in a cooperative manner with the 
regulated community. Before regulation of any contaminants can 
be contemplated, EPA must first answer whether, and at what 
levels, these compounds can reasonably be expected to result in 
effects on human health or the environment. Substantially 
greater funding for the appropriate research is needed before 
broad national regulatory strategies are implemented. In the 
meantime, opportunities exist for collaboration and innovation, 
including research, community collections, take-back programs, 
and aggressive public education campaigns.
    Thank you for your time and the opportunity to testify 
before the Committee. I would be happy to answer any questions 
you may submit.
    Ms. Johnson. [Presiding] Thank you very much.
    Mr. Guidotti.
    Mr. Guidotti. Thank you very much. Chairwoman Johnson and 
honorable Members, I am Tee Guidotti. I have retired as chair, 
but I remain Professor in Environmental and Occupational Health 
at the George Washington University School of Public Health and 
Health Services. I am here today representing only myself, 
however.
    Advanced testing technology has quantified the amounts, but 
neither the levels nor the range of contaminants should be a 
surprise to us; we have known that these substances are in 
water. It shouldn't be any surprise, either, that these 
substances are present, that they exist wherever there is an 
upstream source. At present, these levels are probably not 
enough to affect human health, but, if levels rise for any of a 
number of reasons, this possibility cannot be ruled out for the 
future.
    Why would they rise? Well, for one thing, the population is 
aging. More and more people are taking medications. For 
another, there are changing patterns of prescriptions. So the 
burden of pharmaceuticals is likely to not only increase, but 
to change in terms of its pattern. And the population of 
various communities are increasing, so that upstream loading of 
the waterways is likely to increase.
    I see two issues, two broad issues. One are trace organics, 
particularly pharmaceutical agents, which are widely dispersed. 
And I would include, by the way, silver and copper 
nanoparticles, because I think that this is an emerging issue 
that we are going to see much more of in personal care products 
and in hygienic products. The other problem is emerging 
contaminants of a more restricted nature.
    For the pharmaceuticals and similar trace organics, I think 
that we need a comprehensive program on a national level. I 
think that we need a commitment and comprehensive programs to 
enforce watershed protection and upstream source protection; 
and this may involve land use planning, because this is not the 
only issue that affects watershed integrity and upstream 
protection. We clearly need take-back programs and we need 
coordination with DEA. A great deal has already been said about 
this, I won't repeat it. We need a well designed evaluation and 
monitoring program to determine national trends for the loading 
of trace organics in source water.
    We don't need individual utilities to invest valuable funds 
that could better be used to treat the source and to create 
mitigation technologies as their infrastructure needs are met, 
rather than to conduct monitoring programs in each individual 
city and drinking water system. Personally, I think that would 
be a waste of resources. We know that we need to know the 
general trend; we don't need every single utility to do it for 
themselves.
    We need a research program that is robust and cost-
effective looking at multivalent water treatment technologies 
that break down and remove a broad spectrum of contaminants, 
because many of these contaminants are, at present, best 
removed through singular and rather expensive technologies that 
only work for a limited range of chemicals. And we need the 
deployment of technologies to remove contaminants, which I 
personally think is best done as a program of continuous 
improvement as infrastructure needs are taken care of, rather 
than a crash program, which would be much more expensive and 
which would change priorities from other more pressing issues 
with respect to water quality.
    That is one set of problems. Another set of problems are 
emerging contaminants of a more restricted nature, and this 
includes quite a long list. It is in my written remarks, I 
won't repeat the list right here. But these point source 
emerging contaminants need to be handled differently. Generally 
speaking, they are local problems. We need systematic research 
and tracking where they are most likely to occur, and the 
solution for these issues is more likely to be local and 
targeted, rather than a minimal to a national strategy.
    Finally, the last thing I would like to say is that we need 
to be aware that the recognition of other very heterogeneous 
sets of water pollutants raises another issue which should be 
considered, and that is the issue of simultaneous compliance. 
As we have seen with the lead issue, where compliance with the 
disinfection byproduct rule inadvertently pushed many utilities 
into water chemistry secondary effects, which forced them out 
of compliance with the lead and copper rule, we need to have a 
more integrated approach. We need to have a research that looks 
at the compatibility of various regulations in water quality. 
The best way to do this, I think, is to adopt new regulatory 
models if there are multi-contaminant and multiple risks.
    We need to think through the integration of the Clean Water 
Act and the Safe Drinking Water Act, rather than having the 
current fragmentary system, which is quite different with each 
State. We need to conduct research from the utilities point of 
view and on local water chemistry to better embed public health 
research in the regulatory frameworks and monitoring, and 
acknowledge the role of education and communication for the 
informed public.
    I just want to say one thing very quickly in closing, and 
that is that there is an aura of uncertainty and, if you will, 
anxiety about water that I think, to a large extent, is 
exaggerated, and we are beginning to see this in opposition to 
disinfection in drinking water, which is a catastrophic 
potential move if that movement ever gained force. People are 
becoming cynical about their water. I think we need steps and I 
think we need risk communication strategies to reassure them, 
educate them properly, and to alleviate these concerns.
    Thank you.
    Ms. Johnson. Thank you very much.
    Mr. deFur.
    Mr. deFur. Thank you very much. Good afternoon, Chairwoman 
Johnson and Members of the Committee. I appreciate the 
opportunity to present testimony on emerging contaminants in 
the surface waters of the United States and present some of my 
perspectives on how the Clean Water Act may be improved.
    I am Peter deFur. I am an Environmental Scientist and a 
Research Associate Professor at Virginia Commonwealth 
University, although my comments are my own and do not 
represent the position of VCU or any other organization with 
which I am affiliated.
    Your timing with this hearing is absolutely impeccable. It 
was only two days ago that the Food and Drug Administration 
held a public hearing on one of the emerging contaminants, 
bisphenol-A, or BPA, expressing some of the great controversy 
over the scientific evaluation and whether uncertainty means 
that you proceed with caution or you proceed full steam ahead.
    But to go back to two historical examples over this issue, 
it was 1991 when researchers demonstrated that compounds could 
come out of plasticware, they could leach out and cause 
biological effects in an experimental situation and beyond the 
laboratory. Where were those compounds going if they were 
coming out of the plasticware when the plasticware was being 
washed?
    The next piece of historical information that is important 
is when scientists in Britain discovered that fish were having 
hormonal problems and they realized that male fish had female 
characteristics. Putting those fish in cage downstream from the 
effluent of sewage treatment plants, male fish were becoming 
feminized through something that was coming from those. As a 
result, we had investigations, many of them conducted by U.S. 
researchers, including USGS, to identify what is coming out of 
our effluents, not just from sewage treatment plants, but from 
other facilities, and it turned out a number of those were 
hormonally-active agents and we began to look at what else is 
in those.
    You have already heard from USGS about the great variety of 
compounds that are present not only in our Nation's waters, but 
in some of the discharges that we can identify. Those compounds 
are not just pharmaceutical agents. They are not just from 
personal care products. They are from everything that comes out 
of the house. They are from things that wash off our lawn. They 
are from things that we use in commerce and things we use 
everyday.
    Some of them include caffeine, and it includes the 
breakdown product of nicotine, that is, cotinine. These are 
commonly found in the waters of the United States. One of the 
more recent publications by USGS in 139 rivers and water bodies 
found that both of these were fairly common. Also, the 
plasticizing agents.
    It is also evidence from research that has been conducted 
since that time, much of it since 1991, 1992, that there are a 
number of chemicals that are very active at very low 
concentrations. Some of these chemicals do act like hormones, 
and hormones act at the level of just a few molecules. That is 
how we function; that is how all animals on the face of this 
earth function. They depend upon internal chemical signals.
    Much of the information that we have is very incomplete. We 
don't have good toxicological information on 80,000 chemicals 
in commerce. But we do have information on a number of those 
toxic chemicals that are reported on the USGS list. The 
information comes not only from the peer reviewed scientific 
literature, but also from EPA reports on toxic chemicals and 
from the Agency for Toxic Substances and Disease Registry.
    These investigations suffer from one of the major problems 
that you have already heard about that is in the Clean Water 
Act. We know about individual chemicals, and we know because we 
started them on animals in model systems under controlled 
situations in the laboratory, one chemical at a time, starting 
with fairly high concentrations. We don't know much about how 
low concentrations over long periods of time affect animals in 
the wild or humans. We have very little information about that.
    The Clean Water Act has only criteria for less than 200 
chemicals. If we are going to go through tens of thousands, we 
are going to be here for millennia before we have enough 
criteria to be able to manage this problem properly.
    One of the things that we need to do in the Clean Water Act 
is provide for a comprehensive evaluation of effluents on some 
regular basis that identifies every chemical that comes out of 
there, so that at least we have a complete picture of what is 
in the effluent, regardless of whether or not there is a water 
quality criterion or a standard.
    The second one is we need to have the ability to regulate 
mixtures. EPA and the State regulatory agencies need to do 
something more than individual chemicals, chemical-by-chemical 
regulation. They have to be able to do this. If we wait five 
years, until all of our studies are done, we will still be 
sitting here worrying about mixtures, and the chemicals that we 
have spent five years studying will no longer be a problem--
somebody will have reduced them--and we will be looking at 
another group of chemicals about which we know nothing.
    We have to do something to develop pollution control 
measures at the top of the pipe, not just product stewardship, 
but the ability for dischargers to identify the source and 
control those sources. Pollution prevention is not only more 
effective, it is cheaper.
    I would be happy to answer any questions now or at a later 
time. Thank you very much.
    Ms. Johnson. Thank you very much.
    Let me thank the entire panel for very interesting 
testimony.
    I am going to defer to Mr. Hall for questions.
    Mr. Hall. Thank you, Madam Chair, for your holding this 
hearing and for allowing me to go first.
    I just wanted to start by asking Mr. Grumbles does EPA 
routinely and systematically monitor for pollutants present in 
surface waters? Specifically, does EPA routinely monitor for 
toxic chemicals that do not have permit guidelines? And why or 
why not, depending on the answer.
    Mr. Grumbles. Thank you, Congressman. EPA does not 
routinely monitor for contaminants that don't have criteria or 
effluent guidelines for them. What we do is encourage our State 
partners and utilities to monitor not only for those 
contaminants which are regulated, but also we want to encourage 
monitoring and pollution prevention both through the 
pretreatment program and through other regulatory programs. But 
we are very careful not to impose enforceable regulatory 
requirements for contaminants that don't have assessment 
methods or established criteria under the Act.
    Mr. Hall. Thank you. I understand. Does EPA routinely or 
systematically monitor for toxic chemicals that don't have 
permit guidelines that may be present in wastewater or effluent 
discharges? Would that be the same answer?
    Mr. Grumbles. It is the same answer with the added point 
that, under the Clean Water Act, we have a duty which we take 
very seriously to continuously, on a yearly basis or twice a 
year basis look at effluent guideline requirements to make 
possible requirements or new water quality criterion standards.
    I just think it is important to emphasize we started a 
national survey specifically on pharmaceuticals and personal 
care products not only for the effluent, but also for 
biosolids. We think that is going to help us, just like 
Congresswoman McCarthy's bill, focus in specific directions 
future potential regulatory action.
    Mr. Hall. Thank you.
    I want to ask Mr. Linn, do wastewater treatment facilities 
discharge unregulated toxic chemicals? In other words, do 
wastewater treatment facilities discharge toxics that do not 
have permit limits and do these facilities monitor for those 
toxics?
    Mr. Linn. Wastewater treatment plants will discharge 
anything that is in sewage that is not adequately removed by 
the plant. Anything that society uses and puts down the drain 
is going to reach wastewater treatment plants, and, as we heard 
earlier today, there are 80,000 chemicals in use out there.
    There are certainly quite a few chemicals out there that we 
do not monitor for. To do so would be very expensive and 
prohibitively expensive, and in many cases a lot of these 
things that we are talking about here, the emerging 
contaminants, are occurring at levels that we are just now 
starting to see with cutting-edge analytical technology, and 
there is a lot of uncertainty associated--even when these 
expensive analyses are performed, there is a lot of uncertainty 
associated with the accuracy of the data that is produced.
    Mr. Hall. I understand that. I believe it was Mr. Littell's 
testimony in which he said or one of the panelists said that we 
are now seeing, in the long-lived substances that we are 
talking about, that we are seeing all of the medications or 
chemicals or toxics that we have produced going back to when 
they were first put into use and started being put in the 
ecosystem.
    So it has gone from being unmeasurable or unnoticed to 
being measurable and noticed. I assume that that means you 
would agree that if we keep on doing what we are doing now, 
that that level will continue to rise and, therefore, whatever 
degree of risk there currently is, there will be a greater 
degree of risk if we don't take any action, which is why 
everybody is talking about the different actions we can take.
    USGS demonstrated that surface waters contain a host of 
unregulated contaminants, including carcinogens and endocrine 
disruptors. So the question I would just ask, maybe starting 
with Dr. deFur and going down the line, is are our surface 
waters or our aquifers safe for our infants, for pregnant 
women? Do we know that they will not negatively impact human 
health over the long term?
    I have heard medical professionals in my district, as this 
topic has come to the fore, saying, hmm, I wonder about the 
increase in autism or the increase in Alzheimer's. There are 
some things that are happening we can't explain and people are 
blaming it on thimerosal or whatever. But it raises the 
question, whether it is silver or whether it is caffeine or 
acetaminophen or some combination of antibacterials or the 
synergist effect of all those things.
    So just a quick reaction not that.
    Mr. deFur. Sure, I would be happy to answer that. No, I 
think they are uniformly not safe because we have several 
thousand water bodies that are under EPA regulatory controls 
for one or more chemicals either in the water or in the fish 
that live in there, so very sensibly, in some cases, they 
regulate fish tissue concentrations of things like flame 
retardants, polychlorinated biphenols, DDTs, mercury. So if you 
look at the water in the fish, we have thousands of water 
bodies that have some regulatory warning or concern over the 
levels of those compounds.
    Mr. Hall. Madam Chairman, my time has expired, so if you 
would like to--I yield back if you want to let the rest of the 
panelists answer or answer in writing. Either would be fine. 
Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. We do appreciate your 
being here, Mr. Grumbles, and have appreciated your testimony 
through the years. You have done a tremendous job. You 
mentioned that you were concerned that we needed to explore 
this, but you had some concern about resources being moved off 
things that you felt like were not necessarily important, but 
more in a situation we needed to deal with now. Can you name 
one or two of those things that you are concerned with that we 
are dealing with that we are not doing as good a job?
    Mr. Grumbles. Raw sewage, various mixtures of sewage; 
wastewaters that have pathogens in them. We know that there is 
an acute risk not only to aquatic life, but to human health. 
Beach water quality toxics that are on our national priority 
list for toxic pollutants that are persistent and bio-
cumulative.
    This Country has made tremendous progress over the last 
three and a half decades cleaning up the waters, to make them 
cleaner and healthier. We still have a long way to go, and the 
key to success in the future and sustainable clean water 
program, as you and your colleagues know, is not just to focus 
on what you are currently doing, but to keep an eye on the 
science and the growing need to deal with emerging areas of 
concern, and that certainly includes pharmaceuticals and 
personal care products, even though they are occurring at truly 
tiny trace amounts.
    The question about mixtures, as was pointed out, the 
question about potential impacts, long-term impacts on human 
health are all very legitimate valid questions. The U.S. EPA's 
position is that this is very good. This is great for the 
Committee, in a responsible way, to be drawing attention to 
this growing concern. We are getting so much data. Our 
microscopes are getting so much stronger.
    We can detect chemicals and pharmaceuticals to a greater 
extent than ever before, but we need to be careful and 
communicate the risk and also make sure that there is a risk-
based approach to the priorities. That is why I am just saying 
that we know aging infrastructure systems, pathogens and 
persistent toxics are already being regulated need to continue 
to focus on those.
    Mr. Boozman. Good. Very good. And if that stuff is getting 
through, then this other stuff is getting through with that. 
You know, if we have raw sewage, then all of this stuff is 
getting through.
    Mr. Grumbles. That is right. That is right.
    Mr. Boozman. Very good.
    Mr. Linn, can you tell us a little bit about the challenges 
of removing this stuff, what it would take with present 
technology, the energy that it would take? If we could do it, 
are we running into a situation where, if we did do it, that 
you would almost create other environmental problems or not?
    Mr. Linn. You are talking about moving----
    Mr. Boozman. The expense. The whole bit.
    Mr. Linn.--it out of wastewater treatment plants.
    Mr. Boozman. If we could snap our fingers today and fix 
this, what are the challenges that we face with doing that 
right now?
    Mr. Linn. Well, a lot of these things are already removed, 
at least to some extent, by wastewater treatment----
    Mr. Boozman. Well, the stuff that is showing up in the 
water now.
    Mr. Linn. Some of the stuff that is showing up----
    Mr. Boozman. The hormones and things like that.
    Mr. Linn. Some of the stuff that is showing up in the water 
is removed to a large extent by wastewater treatment plants 
now. Every chemical is different, and that is one of the 
problems; you can't install a single technology at a wastewater 
treatment plant and remove all of any of this stuff.
    Again, the conventional treatment right now removes through 
a variety of processes, depending upon the characteristics of 
the specific chemical you are talking about, anywhere from a 
large amount of it to virtually none of it. So there is not an 
answer to a type of technology that you can just put at a 
wastewater treatment plant that is going to eliminate all of 
this stuff, it just doesn't exist now, and it is unlikely to 
exist in the future.
    Mr. Boozman. This is for the panel. What are some of the 
compounds that are we most concerned about that? You mentioned 
a molecule or two of hormones being a problem. Certainly, that, 
in a very small amount, could be a problem. What are we seeing 
that is elevated where--I don't guess this stuff ever goes 
away, does it? I mean, does it or does it not? I mean, once it 
is in the water to begin with----
    Mr. Linn. If I may answer that. Again, it depends on what 
particular type of chemical you are talking about. Some of the 
chemicals break down in the environment. That isn't always a 
good thing. Sometimes they break down into something else that 
is potentially harmful, but sometimes they break down 
completely and they are gone. Other types of chemicals are very 
persistent and they last for long periods of time. So you get 
the whole range of potential results.
    Mr. Boozman. What are the top two or three that we are 
concerned about?
    Mr. Larsen. If I could ask Mr. Buxton to respond.
    Mr. Boozman. Mr. Buxton?
    Mr. Buxton. Sure. I think the way we think about priorities 
with respect to chemicals is the way they may affect organisms 
in the environment. The endocrine disruption process that was 
mentioned earlier is probably the most important process now 
because, as was acknowledged before, it happens with chemicals 
that occur at extremely low concentrations, and the chemicals 
fall in several classes that have this hormonal activity.
    Some are the biogenic hormones that come from our bodies 
and animals' bodies; some are the synthetic hormones that we 
make and take as part of birth control--pills, ovulation 
inhibitors, those types; others are industrial chemicals that, 
by their molecular form, tend to mimic these hormones. So what 
we find when we study these effects in the environment, 
specifically the effects on fish that live right near where 
they may be introduced to a stream, is that we have to look at 
what we look at the relative estrogenicity, how much each of 
these chemicals act like estrogen, and then, in a way, add it 
up to see what the total effect may be of this mixture of 
chemicals.
    So I would say those are the chemicals that are most 
important, and it is quite a range of different chemicals.
    Mr. Boozman. Let me just close. You mentioned, Dr. deFur, 
the small quantities, you are saying, of the hormones and the 
importance of controlling the dischargers. The challenge, 
though, is that the dischargers in that case, I would argue 
that that is not people that have extra pills. The dischargers 
are us that are sitting here now. So that is a very difficult 
situation to deal with.
    Mr. deFur. Well, you have got a group of chemicals that are 
so widespread as to be almost ubiquitous and that essentially 
have passed through the human organism on their way to the 
water supply that may not be quite so amenable to a take-back 
program. But even those there may be excess supply that can be 
taken out of circulation, so to speak, by appropriate disposal 
mechanisms.
    I think that the hormone disruptors are the issues of 
greatest concern. Drop down a couple orders of magnitude and 
risk, there may be other effects, for example. One of the 
things that we are concerned about with the silver 
nanoparticles is that they really mess up water treatment 
systems, so they may have secondary effects that render our 
sewage treatment less effective. They may also have 
environmental impacts on the microorganisms that live in the 
aquatic environment. So that is an issue.
    And maybe, maybe in this same order of magnitude there are 
issues with the chemical called NDMA, which I won't go into the 
technical side, but which has all of the unwanted 
characteristics of MTBE, which, as you will recall, made such a 
mess of groundwater.
    So these are not all on the same level, by any means, and 
the entire class of problems represented by these emerging 
contaminants is a couple of orders of magnitude less risk than 
some of the more conventional problems that Mr. Grumbles 
articulated so effectively a few minutes ago.
    It is a question of putting things into perspective and 
being sure that the investment to control this does not take 
funds away from issues of a higher, short, and long-term 
priority.
    Ms. Johnson. Thank you very much.
    Mr. Taylor.
    Mr. Taylor. Thank you, Madam Chair.
    I do want to thank our panel. I would, though, at this 
moment have to tell you that all of you gentlemen have been 
very long on generalities and very short on specifics. It is my 
understanding that, at the moment, the FDA is four and five 
years behind just on checking food products from coming 
overseas, on checking on drugs coming from overseas. I guess my 
thought to you, as someone who has to explain to 700,000 
Mississippians why we are $10 trillions in debt, that unless 
you can identify a more specific problem and a more specific 
solution, I don't think anything comes of this hearing.
    Raw sewage is already outlawed; you cannot dump that into 
the waters of the United States of America. We already have 
standards for biological oxygen demand. We have standards for 
fecal chloroform. We have standards for suspended solids in the 
water. We have standards for how much mercury can be in the 
water.
    I would think a more practical approach to what some of you 
have been saying would be a public awareness campaign. If you 
have isolated a specific drug that people are flushing down 
their commodes that is causing a problem and can give them a 
better alternative to disposing of that drug, then I think that 
would be worth funding.
    So I am going to give the panel an opportunity to be a bit 
more specific than you have been so far in this hearing.
    Mr. Grumbles. Congressman, I would just like to say I 
completely endorse your statement about public education and 
awareness and responsible use of taxpayer funds. There is no 
doubt, from an EPA standpoint, as we worked very hard and 
closely with FDA and with other agencies involved in the 
regulation of the pharmaceutical industry, product stewardship, 
and the Drug Enforcement Administration on take-back programs, 
that pollution prevention is key. It is the low hanging fruit 
as we continue to do more science and research, and it doesn't 
involve sacrifice.
    One thing that I think is very important from an EPA 
standpoint is to continue to look for cost-effective treatment 
technologies at the sewage treatment plant. As Congressman 
Boozman mentioned, a lot of this isn't simply unused pills 
being flushed or somehow getting into the sewers; it is also 
average daily excretion. So what can we do? I will tell you one 
thing we are doing is we are reviewing over 400 studies on 
current or promising technologies at the sewage treatment plant 
that can both detect and reduce the presence of these 
contaminants of emerging concern.
    I think it is important to go carefully and responsibly. It 
is also important, however, not to brush this off and say, 
well, the science hasn't proven that there is some direct and 
immediate threat to human health; and I think you are saying 
the same thing.
    Mr. Taylor. Mr. Grumbles, I do appreciate that. So out of 
this panel, I have got to believe there is one thing that the 
panel can identify is saying we have strong reason to believe 
that this is a problem. Fill in the ``this.'' And we have 
strong reason to believe that that can be solved by doing what? 
Because I really haven't heard that today.
    Mr. Grumbles. I will say something. I know Matt Larsen may 
want to say something too.
    I will tell you what is a problem. A problem is when you 
have intersex fish. That is not acceptable. Particularly as we 
look more and find more, that is not acceptable. Now, what do 
we do about that? One thing we can do is to continue to gather 
more information so we know the potential causes. I know that 
it is important to look at the wastewater treatment plants; it 
is important to look at concentrated animal feeding operations; 
and to look at potential regulatory changes.
    But a key right now is to get out much more information on 
proper disposal of unused pharmaceuticals and take-back 
programs. We need to do a lot more across the Country to work 
on community-based and community-driven efforts, and work with 
the aging population to make it easier for them to understand 
and properly dispose of unused pharmaceuticals and personal 
care products.
    Mr. Larsen. If I could add some specifics that might help 
in your appreciation for the problem and also how the drinking 
water treatment plants are responding.
    A recent study published last year by the USGS analyzed at 
one conventional drinking water treatment plant 113 organic 
compounds that included the list of types of chemicals we are 
talking about here today. Forty-five of these compounds were 
detected in samples of source water, the water coming into the 
plant, and 34 were detected in samples of settled sludge and 
filter backwash.
    The performance of the plant, in general, granular-
activated carbon filtration accounted for 53 percent of the 
removal of these compounds from the aqueous phase, disinfection 
accounted for 32 percent, and clarification accounted for 15 
percent of the removal.
    The effectiveness of the treatment varied widely within and 
among classes of compounds, and the detection of 21 of the 
compounds in one or more samples of finished water--the water 
that we would be drinking at our tap--was documented and 3 to 
13 compounds in every finished water sample indicates 
substantial, but incomplete, degradation or removal of organic 
compounds through conventional drinking water treatment 
processes used at this plant.
    Unidentified Speaker. I have four specific suggestions.
    Mr. Taylor. It would have to be with the approval of the 
Chairwoman at this point.
    Ms. Johnson. We have multiple votes, so I am going to try 
to wrap up before we leave, and just ask Members--you can ask 
that one question, but I was going to ask Members if they will 
submit their questions so that we can submit them to the 
witnesses.
    I am going to call on one more, Mr. Brown.
    Did you have another?
    Mr. Taylor. No.
    Ms. Johnson. Okay, Mr. Brown.
    Mr. Brown. Madam Chair, thank you. I know a vote has been 
called for, so we have limited time, but I was just going to 
follow up on Congressman Taylor's recommendation.
    Back in my early career, I was actually on city council, 
and wastewater treatment was a big issue for us. I know that 
about all I could get out of the guy that did the treatment is 
he puts these bugs in and I guess before we had primary 
treatment and had to go to secondary treatment because our 
local DEHAC was in South Carolina. So I guess if I could find a 
conclusion similar to what Congressman Taylor was talking 
about, if we could get some assurance that there is enough 
testing going on to be able to determine what is out there so 
we must have some criteria or some limits to what can pass and 
what cannot pass.
    How can we establish some criteria to be sure that if there 
is something in either the wastewater that is going out that 
needs to be diluted or whether, when we get our drinking water 
coming in, before it actually goes into the pipes, that there 
is some assurance that these items will be extracted?
    Mr. Grumbles. Congressman, I am just going to say quickly 
that EPA appreciates congressional support for efforts to do 
more to update and improve upon the aquatic life criteria and 
the scientific methods for factoring in a better way to 
evaluate gender-bender type of effects on fish. We are working 
with the Science Advisory Board on that.
    The other key area for us that can help establish criteria 
or standards in future directions in research and regulation 
and pollution prevention is working through the National 
Academy of Sciences on a road map for identifying potential 
human health risks. I think that has got to be a very important 
factor to justify the expense, the investments, and make sure 
we don't divert attention away from higher priorities.
    Mr. Brown. Thank you, Madam Chair. I know our time is 
limited.
    Ms. Johnson. Thank you very much.
    Congresswoman Napolitano wants to ask a question and asks 
for a written response.
    Mrs. Napolitano. Yes. Thank you, Madam Chair.
    Very quickly, one of the things that I have not heard is 
whether or not EPA or USGS or anybody has the appropriate 
funding to be able to do all of the required analysis of 
everything that we are talking about, because, without the 
money, you can say you are going to do it, but if you can't 
stretch the money far enough, it is not going to get done.
    Unfortunately, I have seen that in my area. We continue to 
try to identify in the sanitation district those pollutants in 
the effluent and everything else. So I would like an answer in 
writing as to whether or not the funding is adequate and 
whether or not you would be able to move forward more 
expeditiously with additional funding that will cover the work 
you have to do.
    Ms. Johnson. Thank you very much.
    I am going to ask Congresswoman Norton if she can take the 
chair and ask questions.
    Let me once again thank the panel. This is probably one of 
the most interesting hearings we have had and probably with the 
most questions. While Ms. Norton is coming, let me ask Dr. 
Guidotti, didn't you say you were retired? Do you have any 
volunteer time?
    Mr. Guidotti. I am retiring, yes.
    Ms. Johnson. Oh. Let us know when you are retired.
    Mr. Guidotti. All right.
    Ms. Norton. [Presiding] A dubious advantage of not being 
able to vote except in the Committee of the whole, so I get to 
ask my questions. I will assume that that can be counted as a 
tradeoff. I am not sure that it rises quite to the level that 
taxpaying Americans, however, would regard.
    I do have a question. I think this is an important hearing 
for us to have. In this region, we have seen what Mr. Grumbles 
calls intersex fish, among other deformities in the fish 
population. Recently, and only recently, frankly, did 
pharmaceuticals emerge; and if they have emerged here, they 
must be emerging everywhere in the United States.
    In this region, we have experienced lead in the water 
because we saw that, while there was regulation, there was 
manipulation of the regulations, and that was here in the 
District of Columbia. In the Nation, we are experiencing what 
can only be called an economic collapse of an entire section of 
the economy because nobody regulated in time. So I think we 
have got to begin to ask very hard questions that are proactive 
and preventative, especially when the handwriting is so clearly 
on the wall and everyplace else.
    The Chesapeake Bay, of course, is one of the great, 
marvelous wonders of America, but it cannot possibly be unique. 
So my question really has to do with how much we need to know 
before it occurs to us that something has to be done.
    Now, scientific certainty is impossible, and you will 
always get, as we should, conflicting views even from 
respectable scientists, and today, with, I think it fair to 
say, 90 percent of respectable scientists saying that there is 
some manmade warming going, you still have a debate going on on 
that. The planet may burn up before that one gets decided.
    But this one is very, very--this has a two-pronged 
problem--the pharmaceuticals, the intersex fish, the crab 
population that is drastically diminished in this region. The 
two-prong problem is a health problem--that is first and 
foremost--and, in areas like this, an economic problem that 
could get to be very severe if we wait for I don't know.
    So I think it is fair to ask, in light of what we have 
already seen, whether that is enough to warrant at least some 
regulation, the beginning, at least, of some regulation. And I 
would like to know what, if any, regulation can be said to be 
relevant to what we are seeing clearly among changes in fish.
    Yes, Mr. Grumbles.
    Mr. Grumbles. You know, I don't disagree with your 
statement. EPA is not waiting for a final verdict from the 
scientific community before we take action.
    Ms. Norton. On what? Finish the sentence.
    Mr. Grumbles. Yes, exactly. On several fronts. On the 
regulatory front, we know, in this litigious society--we also 
know, in our approach to things, it has to be based on sound 
science before you take specific regulatory actions. You have 
to be able to defend the record. What we are doing is we are 
pursing, on a regulatory front, we are going to be finalizing a 
concentrated animal feeding operations rule. We had to go back, 
based on a court decision, and revise it, and we are going to 
be issuing that rule in the next month, and it is focused on 
zero discharge from those large feed lots.
    Now, when it comes to regulatory actions specifically 
focused on pharmaceuticals or personal care products, 
Congresswoman, we are pursuing a survey to gather information 
from the health services industry--this is one of my highest 
priorities--that will help inform us as a potential regulation 
under the Clean Water Act for new effluent guidelines 
specifically for hospitals, nursing care facilities, veterinary 
clinics. That, we need to gather more information on, but we 
are very interested in and EPA is watching how the very large 
and important player in this, the health services industry, is 
disposing of pharmaceuticals and personal care products.
    We also, on the drinking water front, as you are very 
familiar with based on your rule and efforts in the lead and 
copper rule, we have a contaminant candidate listing process 
where the Agency, in a very formal way, identifies potential 
contaminants that aren't currently regulated to decide whether 
or not to regulate those. We are in the process of reviewing, 
gathering public comments specifically on pharmaceuticals and 
personal care products. It is an area that merits a lot of 
attention from us.
    But I would just underscore what the other panelists have 
said, Congresswoman, so far, there is a lot of meaningful 
action that we can take that doesn't fall into the regulatory 
category, that will really make a difference, that the 
taxpayers will feel is a good use of their money and also can 
reduce the risks from these emerging contaminants, and by that 
we mean product stewardship, working with the pharmaceutical 
industry, working with communities on take-back programs.
    Those are real and meaningful actions that we can take, and 
I know personally, in my position, I have seen, over the last 
year, a tremendous amount of increased effort and attention by 
communities and citizens groups and State and local 
governments, as well as EPA, on greater awareness about proper 
disposal of these personal care products.
    Ms. Norton. Have you advised the States and localities--
there is such consciousness today, aroused consciousness that 
consumer information would be a beginning, an important 
beginning. Has EPA advised States and localities--particularly 
since the Federal Government, it seems to me, has the capacity 
to do or access to the needed research--on how they should 
advise consumers, for example, to dispose of--there are all 
manner of chemicals, but let's begin with pharmaceuticals, 
which are so common? I don't know what to do. I don't know what 
to do, by the way.
    Mr. Grumbles. I have written to every single State 
commissioner asking them, first of all, what they are doing on 
this emerging area of concern about pharmaceuticals and what 
types of research needs they have----
    Ms. Norton. I guess that sounds like--I think they might be 
asking you.
    Mr. Grumbles. Yes. Well, we have met and we are working 
with the State water and drinking water agencies on research 
priorities and ways to improve risk communication.
    Ms. Norton. Isn't there something we can be telling the 
average consumer about disposal?
    Mr. Grumbles. Yes.
    Ms. Norton. Pharmaceuticals are precious way now to save 
people from going to the hospital, it is not simply something 
for our elderly. Pharmaceuticals are so widely used that if 
there was general information so that every State and locality 
didn't have to find out for themselves as to ten steps, six 
steps--you name it--that everyone can take, we might be able to 
begin----
    Mr. Grumbles. That is an excellent point. In January of 
last year, the Administrator, the Secretary of Health and Human 
Services, and the Director of the White House Office of 
National Drug Control Policy issued national guidelines for the 
consumer. It was a first step, Congresswoman. It was a first 
step to encourage the proper disposal of unused 
pharmaceuticals, urging that the rule is: a toilet isn't a 
trash can; if you are going to use a trash can, here is one way 
to dispose of it for security reasons and also environmental 
protection. We need to do a lot more work on that front. We 
can't do it alone, and the State commissioners, the local 
utilities, the pharmaceutical industry, product stewardship 
initiatives----
    Ms. Norton. Mr. Grumbles, I recognize, because when I talk 
about these kinds of matters, I know I am not entirely in your 
jurisdiction, but the point I would like to make here is that 
is just what I would like not to happen. There is a reason why 
the EPA is a Federal responsibility. The waters, for example, 
from the District of Columbia go into the entire region; so 
does the Anacostia, the Chesapeake Bay, the Anacostia, the 
Potomac. There are no borders there. So that if what we 
encourage without some national guidance is exactly what the 
interstate clause is meant to avoid, some kind of pot marketed 
notion of how to dispose of things, then we will have conflict 
among the States, conflict among the localities.
    I am looking for some urgent national guidance, and I may 
not be talking to the officials here who are in a position 
always to do that, but I would hate to see us ask the States 
what they are doing, then have them feel panicked about making 
sure they are doing something without recognizing that one 
State could be doing something to protect itself which could be 
exactly what endangered a neighboring State or locality or 
waterway.
    Mr. Grumbles. I could not agree with you more. In terms of 
updating the guidance that we issued in January of last year 
and working on additional fronts, the RCRA program on reverse 
distribution systems is very much a priority for us, working on 
some national parameters with our State and local partners and 
drawing greater attention to this whole subject, embracing 
pollution prevention and product stewardship as we gather more 
information on the scientific front about the risks and the 
potential health effects.
    Ms. Norton. Well, I want to thank the entire panel. My only 
regret, given my deep interest in this subject, is that I 
couldn't be here for the entire time. I simply want to leave 
you all with the notion that I don't think there is another 
thing that anybody could want to learn about the need to begin 
measured and careful, but certainly to be in some regulation 
when fish start changing sexes--and we are not talking about a 
few abnormalities--and when whole or parts of the economy of 
regions are threatened. I hope that we have learned, certainly 
from the present economic crisis, that at some point not only 
will it be necessary to do something at some point, sometimes 
it is impossible to do something.
    So I urge, particularly for what is happening when it comes 
to abnormalities in fish, to take that as much of a warning 
sign as you need. We may not know as much about pharmaceuticals 
and the rest of it, but the decline in certain species of fish 
is now widespread and well known, and the abnormalities in 
fish, it seems to me, are more than indicators and deserve some 
thoughtful regulation, if you will forgive me, yesterday.
    I want to thank all of you for coming, on behalf of the 
Chair, to this very important hearing.
    [Whereupon, at 4:39 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5022.008
    
    [GRAPHIC] [TIFF OMITTED] T5022.009
    
    [GRAPHIC] [TIFF OMITTED] T5022.010
    
    [GRAPHIC] [TIFF OMITTED] T5022.011
    
    [GRAPHIC] [TIFF OMITTED] T5022.012
    
    [GRAPHIC] [TIFF OMITTED] T5022.013
    
    [GRAPHIC] [TIFF OMITTED] T5022.014
    
    [GRAPHIC] [TIFF OMITTED] T5022.015
    
    [GRAPHIC] [TIFF OMITTED] T5022.016
    
    [GRAPHIC] [TIFF OMITTED] T5022.017
    
    [GRAPHIC] [TIFF OMITTED] T5022.018
    
    [GRAPHIC] [TIFF OMITTED] T5022.019
    
    [GRAPHIC] [TIFF OMITTED] T5022.020
    
    [GRAPHIC] [TIFF OMITTED] T5022.021
    
    [GRAPHIC] [TIFF OMITTED] T5022.022
    
    [GRAPHIC] [TIFF OMITTED] T5022.023
    
    [GRAPHIC] [TIFF OMITTED] T5022.024
    
    [GRAPHIC] [TIFF OMITTED] T5022.025
    
    [GRAPHIC] [TIFF OMITTED] T5022.026
    
    [GRAPHIC] [TIFF OMITTED] T5022.027
    
    [GRAPHIC] [TIFF OMITTED] T5022.028
    
    [GRAPHIC] [TIFF OMITTED] T5022.029
    
    [GRAPHIC] [TIFF OMITTED] T5022.030
    
    [GRAPHIC] [TIFF OMITTED] T5022.031
    
    [GRAPHIC] [TIFF OMITTED] T5022.032
    
    [GRAPHIC] [TIFF OMITTED] T5022.033
    
    [GRAPHIC] [TIFF OMITTED] T5022.034
    
    [GRAPHIC] [TIFF OMITTED] T5022.035
    
    [GRAPHIC] [TIFF OMITTED] T5022.036
    
    [GRAPHIC] [TIFF OMITTED] T5022.037
    
    [GRAPHIC] [TIFF OMITTED] T5022.038
    
    [GRAPHIC] [TIFF OMITTED] T5022.039
    
    [GRAPHIC] [TIFF OMITTED] T5022.040
    
    [GRAPHIC] [TIFF OMITTED] T5022.041
    
    [GRAPHIC] [TIFF OMITTED] T5022.042
    
    [GRAPHIC] [TIFF OMITTED] T5022.043
    
    [GRAPHIC] [TIFF OMITTED] T5022.044
    
    [GRAPHIC] [TIFF OMITTED] T5022.045
    
    [GRAPHIC] [TIFF OMITTED] T5022.046
    
    [GRAPHIC] [TIFF OMITTED] T5022.047
    
    [GRAPHIC] [TIFF OMITTED] T5022.048
    
    [GRAPHIC] [TIFF OMITTED] T5022.049
    
    [GRAPHIC] [TIFF OMITTED] T5022.050
    
    [GRAPHIC] [TIFF OMITTED] T5022.051
    
    [GRAPHIC] [TIFF OMITTED] T5022.052
    
    [GRAPHIC] [TIFF OMITTED] T5022.053
    
    [GRAPHIC] [TIFF OMITTED] T5022.054
    
    [GRAPHIC] [TIFF OMITTED] T5022.055
    
    [GRAPHIC] [TIFF OMITTED] T5022.056
    
    [GRAPHIC] [TIFF OMITTED] T5022.057
    
    [GRAPHIC] [TIFF OMITTED] T5022.058
    
    [GRAPHIC] [TIFF OMITTED] T5022.059
    
    [GRAPHIC] [TIFF OMITTED] T5022.060
    
    [GRAPHIC] [TIFF OMITTED] T5022.061
    
    [GRAPHIC] [TIFF OMITTED] T5022.062
    
    [GRAPHIC] [TIFF OMITTED] T5022.063
    
    [GRAPHIC] [TIFF OMITTED] T5022.064
    
    [GRAPHIC] [TIFF OMITTED] T5022.065
    
    [GRAPHIC] [TIFF OMITTED] T5022.066
    
    [GRAPHIC] [TIFF OMITTED] T5022.067
    
    [GRAPHIC] [TIFF OMITTED] T5022.068
    
    [GRAPHIC] [TIFF OMITTED] T5022.069
    
    [GRAPHIC] [TIFF OMITTED] T5022.070
    
    [GRAPHIC] [TIFF OMITTED] T5022.071
    
    [GRAPHIC] [TIFF OMITTED] T5022.072
    
    [GRAPHIC] [TIFF OMITTED] T5022.073
    
    [GRAPHIC] [TIFF OMITTED] T5022.074
    
    [GRAPHIC] [TIFF OMITTED] T5022.075
    
    [GRAPHIC] [TIFF OMITTED] T5022.076
    
    [GRAPHIC] [TIFF OMITTED] T5022.077
    
    [GRAPHIC] [TIFF OMITTED] T5022.078
    
    [GRAPHIC] [TIFF OMITTED] T5022.079
    
    [GRAPHIC] [TIFF OMITTED] T5022.080
    
    [GRAPHIC] [TIFF OMITTED] T5022.081
    
    [GRAPHIC] [TIFF OMITTED] T5022.082
    
    [GRAPHIC] [TIFF OMITTED] T5022.083
    
    [GRAPHIC] [TIFF OMITTED] T5022.084
    
                                    

</pre></body></html>
